           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 THE SOCIAL SECURITY ADMINISTRATION’S
     ABILITY TO REACH INDIVIDUALS
 USING THE SOCIAL SECURITY STATEMENT


    January 2008       A-15-07-17095




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      January 11, 2008                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Ability to Reach Individuals Using the Social
           Security Statement (A-15-07-17095)


           Our objective was to review the Social Security Administration’s (SSA) ability to reach
           individuals and inform them about their earnings and future benefits using the Social
           Security Statement. Specifically, we reviewed two of three wage earner populations1
           eligible to receive a Social Security Statement. The two populations are wage earners
           for whom SSA could not obtain a current address and wage earners whose Statements
           were returned to SSA as undeliverable.

           BACKGROUND
           Section 1143 of the Social Security Act 2 requires that SSA send an annual Statement to
           all eligible individuals (Social Security number [SSN] holders aged 25 and older who are
           not yet in benefit status and for whom SSA can determine a current mailing address).
           The Statement informs workers of their posted earnings for each year, provides Old-
           Age, Survivors and Disability Insurance (OASDI) benefit estimates, and valuable
           information about Social Security programs and services. In Fiscal Year (FY) 2006,
           more than 145 million Social Security Statements were mailed to eligible wage earners.




           1
             The third population, wage earners whose Statements were mailed and not returned to SSA, is not
           included.
           2
               42 U.S.C. § 1320b-13.
Page 2 - The Commissioner

In October 1999, 3 SSA began issuing annual Statements to eligible wage earners in an
effort to educate workers and help them plan for retirement earlier in life. The
Statements also inform workers about the future of Social Security. For example, the
Statements note that:

          Today there are almost 36 million Americans age 65 or older. Their
          Social Security retirement benefits are funded by today’s workers and
          their employers who jointly pay Social Security taxes – just as the
          money they paid into Social Security was used to pay benefits to those
          who retired before them. Unless action is taken soon to strengthen
          Social Security, in just 11 years we will begin paying more in benefits
          than we collect in taxes.

SSA obtains mailing addresses for the Social Security Statements from the Internal
Revenue Service (IRS) pursuant to a Memorandum of Understanding (MOU) between
the two agencies. If a Statement is returned to SSA by the United States Postal Service
(USPS) as undeliverable, SSA does not remail it. 4 These Statements are destroyed
without further processing. 5 There are some individuals for whom IRS cannot provide
an address. SSA does not attempt to obtain addresses from other sources; therefore, a
Statement is not mailed to these individuals.

RESULTS OF REVIEW
Some eligible wage earners age 25 or older, who are not receiving OASDI benefits and
for whom a current mailing address can be obtained, are not receiving a Statement.
Although some of the reasons individuals do not receive a Statement are beyond SSA’s
control, we found there may be opportunities to improve the current process.

SSA’S CURRENT PROCESS DOES NOT ENSURE ALL WAGE EARNERS RECEIVE
A STATEMENT

We selected a sample of 250 Statement envelopes returned as undeliverable to the
Metro West (MW) Mail Operations. We randomly selected 50 of these Statements for
5 days during the time period of January 23 through January 31, 2007, 6 for a total of
250 Statements. Our sample approach was not developed for projection purposes, but

3
 Since August 1988, SSA has provided Statements of recorded earnings and estimates of Social
Security benefits to Social Security number holders who requested this information. In October 1999,
under the Social Security Act, SSA began the annual issuance of automatic earning Statements to
eligible wage earners. 42 U.S.C. § 1320b-1(c)(2).
4
 Program Operations Manual System, Records Management 01305.001, The Social Security Statement,
What We Do With Undelivered Statements.
5
    SSA has a contract with an outside vendor who shreds and destroys returned Statements.
6
 MW Mail Operations did not receive mail deliveries everyday; therefore, we could not select a sample
during 5 consecutive days. We selected our Statement sample on the days mail was received at MW.
Page 3 - The Commissioner

rather to determine the reasons Statements are returned as undeliverable. The number
of returned Statement envelopes varied daily and Statement envelopes were
systematically selected from the front and rear of incoming mail trays.

From our random sample of 250 Statement envelopes, we found 236 of those
envelopes were properly addressed domestic envelopes or Post Office (P.O.) Box
numbers that were returned as undeliverable for unknown reasons. 7 Some
explanations for why these Statements were returned could be that the individual
moved without filing a change of address or that the individual is deceased, but SSA
has not been notified.

Four of the remaining 14 Statement envelopes had incomplete domestic street
addresses and the last 10 envelopes had incomplete foreign addresses. Specifically,
one or more address lines were missing on all 10 envelopes.

                          Returned Statement Envelopes – Sample 1

               Description of Sample Items                            Number

           Complete domestic addresses or P.O.
           Box numbers that were not delivered                           236
           Incomplete domestic street addresses                            4
           Incomplete foreign addresses                                   10
           Sample Total                                                  250


During our visits to the MW facility, we also selected a second sample of 108 envelopes
during a general perusal of the incoming mail trays. This additional sample was not
developed for projection purposes. These 108 envelopes were selected based on
characteristics we believed warranted further analysis as a result of our visual
inspection of the outside of the Statement envelopes.

We determined that 51 of the 108 Statement envelopes had proper domestic
addresses, General Delivery or P.O. Box numbers that were returned as undeliverable.
Of the remaining 57 Statement envelopes, 21 were not delivered because the domestic
mailing address was insufficient; all 23 foreign addressed envelopes were not delivered
because the mailing address was insufficient; 12 Statements were improperly folded
and inserted into the envelopes so that the address was not visible; and 1 envelope was
empty.




7
    Envelopes were properly addressed per USPS Postal Addressing Standards, Publication 28, July 2006.
Page 4 - The Commissioner

                          Returned Statement Envelopes – Sample 2

                         Description of Sample Items                              Number

               Complete domestic addresses, P.O. Box
               numbers, or General Delivery addresses that were                       51
               not delivered
               Incomplete domestic street addresses (missing
               house numbers or P.O. Box numbers)                                     21
               Empty Envelope (had not been opened)
                                                                                       1
               Incomplete foreign addresses
                                                                                      23
               Statements improperly inserted into envelopes
               (address was not visible)                                             12
               Sample Total                                                          108


Both the samples identified a systemic problem with foreign addresses. SSA is not
sending out Statements with complete foreign addresses. 8 SSA staff informed us that it
is aware that there are some problems with foreign addresses. SSA staff stated that:

        The IRS system used includes two fields for address lines. When one
        is used for a foreign country name, IRS stores what would usually be
        the first address line in one of their two 35 character name fields. Since
        the Internal Revenue Code (IRC) section authorizing disclosure for
        Statement addresses only authorizes them to provide SSA with the
        address, they send us records with most fields, including the name
        fields, blank.

SSA also stated that it has been aware of the problem for many years and has
discussed this issue with IRS. IRS informed SSA that unless existing disclosure laws
are amended, it is unable to provide additional address information to SSA. In FY 2006,
SSA’s contractor 9 reported that 652,608 Statements were mailed to foreign addresses.
We estimate that at a minimum the cost to send mail to Canada and Mexico at $0.63
per envelope is approximately $411,000. However, we also acknowledge that some of
these Statements were mailed at a higher rate to other foreign countries at a maximum
postage rate of $0.84 per envelope. Without complete addresses, SSA will continue to
spend money to send Statements that never reach the intended wage earners.


8
 The foreign addresses used by SSA do not meet the standards under the USPS International Mailing
Manual, Addressing International Mail, Section 122.1, which states, “The house number and street
address or box number must be included when mail is addressed to towns or cities.”
9
 SSA uses a Government Printing Office vendor to print and mail Statements under a “Requirements
Contract.” A Requirements Contract obligates the contractor to fill all the acquisition requirements of
designated activities for specific supplies or services as the orders are placed during the contract period.
Quantities produced must stay within the contract limits.
Page 5 - The Commissioner

SSA staff stated that it routinely conducts inspections at the contractor’s site.
Additionally, SSA staff stated:

          We do not change the addresses given to us by IRS. They are
          presumably correct given the fact that they are received by IRS each
          year or sooner. When we inspect the printing and inserting of the
          Statements, we do not, nor does the contractor note any addresses
          since we are told not to correct them. We concentrate on printing,
          inserting and mailing.

Based on SSA’s data, of the more than 145 million Statements that were mailed in
FY 2006, approximately 5 million Statements were returned to SSA as undeliverable.
At the domestic bulk mail rate of $0.309 in Calendar Year (CY) 2006, SSA spent at least
$1.5 million 10 in postage to send Statements that never reached the intended recipients.
In 2006, SSA reported that postage costs to mail all Statements were approximately
$42 million. In addition, the contract costs to print and mail the Statements were almost
$5 million and the IRS MOU cost was approximately $277,000. 11

Few Government agencies touch the lives of as many people as SSA. Almost
53 million people - - 1 in 6 of the total population - - receive monthly Social Security or
Supplemental Security Income benefit payments. Over 95 percent of America’s
162 million workers are earning valuable Social Security coverage for themselves and
their families. 12 Based on the number of Statements being returned as undeliverable
every year, millions of these eligible wage earners may not be receiving a Statement
which is intended to help them plan their financial future and determine whether their
earnings are being accurately reported.

“ADDRESS UNKNOWN” INDIVIDUALS HAD RECENT CONTACT WITH SSA

Weekly, SSA sends an electronic Taxpayer Address Request (TAR) file to IRS. (See
Appendix E). This file contains an SSN and the first four letters of the last name of
individuals in the Numident file. 13, 14 These records are sent to IRS to obtain an address
match for those individuals that will be sent a Statement. When IRS returns the TAR
file, it contains the SSNs, names and matched addresses. The file also contains those

10
  We believe this estimate is conservative because it is based on the domestic bulk mail rate only and
does not take into account that some Statements were sent at higher foreign mail postage rates.
11
  Prior to FY 2007, IRS charged SSA by the record at an average cost of $209,000 per year. For
FY 2007, IRS began charging SSA a flat fee of $175,000 for the addresses.
12
     SSA's FY 2006 Performance and Accountability Report, p. 8.
13
  These individuals are selected based on their month of birth. Statements are mailed 3 months prior to
an individual’s birth month.
14
   SSA’s Numident database contains identifying information, including the name, date of birth, and SSN
of more than 441 million individuals.
Page 6 - The Commissioner

SSNs and the first four letters of the last name of the individuals that IRS could not
match to an address. These are considered “address unknown” records. We used the
329,829 “address unknown” records from the TAR file to sample 250 records for a
1-week period (week ending December 22, 2006). Per SSA, there were 21 million
records processed by IRS as “address unknown” in FY 2006. Although some of these
individuals had earnings, SSA was not able to send them a Statement because IRS
provided no address.

For our sample, we determined whether individuals had contacted SSA to request a
replacement SSN card in CYs 2005 or 2006. Requests for replacement SSN cards are
processed through the SS-5 Assistant application. 15 Information from the application for
a replacement SSN card updates SSA’s Numident file. We reviewed the Numident and
found that of the 250 records, 17 individuals had contacted SSA to request a
replacement SSN card. Further analysis found that 8 of the 17 individuals had earnings
in 2005 and/or 2006. Based on the week reviewed, we estimate that 548,860 of the
“address unknown” records in a year had recent Numident activity and recorded
earnings 16 (see Appendix C).

Based on our review of the 329,829 “address unknown” records, SSA could use
available Numident information to determine if a current address exists for wage
earners for whom IRS could not provide an address. If SSA were to use address
information submitted with the application for a replacement SSN card, some eligible
wage earners who had recent contact with SSA could be mailed a Statement.

LOW INCOME WAGE EARNERS ARE NOT RECEIVING STATEMENTS

We also used the “address unknown” sample of 250 records for the same 1-week
period to determine who had earnings during 1990 or later and should have received a
Statement. Since the source of the IRS address is dependent on an individual filing a
tax return, (see Appendix D) we conducted research to determine the number of
individuals who had earnings but did not have an IRS filing requirement. 17 From our
analysis, we determined that 71 individuals had earnings during 1990 through 2006 and
should have received a Statement. Of the 71, we found 41 individuals (58 percent) did
not have sufficient earnings in any Tax Year between 1990 and 2006 to have a tax filing
requirement. Thirty individuals (42 percent) had sufficient earnings in at least 1 year
requiring a tax return (the tax filing requirement is based on an assumption of being

15
  The SS-5 Assistant is an application that has been developed to support processing of Social Security
number applications. The SS-5 Assistant guides the interviewer through user-friendly screens, improving
the quality of the process.
16
   IRS returned “address unknown” records in the TAR files to SSA for 48 of the 52 weeks in CY 2006.
The average (mean) number of records returned weekly during these 48 weeks was approximately
434,000 and the median was approximately 437,000. The week chosen for our review contained
329,829 records; therefore, we consider our CY 2006 estimate of 548,860 records based upon this week
to be conservative.
17
     IRS website: www.irs.gov; “Prior Year Forms, Instructions and Publications.”
Page 7 - The Commissioner

single and under 65 years of age). Individuals who did not file a tax return would likely
have no address on file with the IRS. Because there were no valid addresses available
for this group of individuals with earnings, Statements were not mailed.

We conducted additional research into the yearly level of earnings and tax filing
requirements of the 71 individuals. The following chart shows the results of our
research.
                               Tax Filing Requirements
         Federal        Tax Filing Requirement         Number under         Number over
         Tax Year              Threshold                Threshold            Threshold*

           1990                 $5,300                 59                         12
           1991                 $5,550                 62                         9
           1992                 $5,900                 62                         9
           1993                 $6,050                 62                         9
           1994                 $6,250                 64                         7
           1995                 $6,400                 65                         6
           1996                 $6,550                 66                         5
           1997                 $6,800                 68                         3
           1998                 $6,950                 67                         4
           1999                 $7,050                 67                         4
           2000                 $7,200                 65                         6
           2001                 $7,450                 62                         9
           2002                 $7,700                 63                         8
           2003                 $7,800                 65                         6
           2004                 $7,950                 65                         6
           2005                 $8,200                 64                         7
           2006                 $8,450                 62                         9
        *The highest salary in any 1 year was $73,623.16.

Some eligible wage earners who are entitled to receive a Statement are not receiving
their Statements. SSA should look at alternative methods of contacting low wage
earners who are entitled to a Statement of earnings and benefits.

METRO WEST MAIL OPERATIONS IS NOT MAINTAINING ACCURATE MONTHLY
WORKLOAD REPORTS

The Metro West Mail Operations staff estimates the number of Social Security
Statements that are returned as undeliverable. 18 Based on SSA’s data, approximately
5 million earnings statements were returned to SSA as undeliverable during CY 2006.
Based on our work, we believe this estimate is low.

18
  We were informed that SSA is not currently using the MW monthly reports (estimates) for any reviews.
However, we also noted that the number of Statements returned as undeliverable was requested in
preparation for a congressional hearing in February 2006. If in the future, SSA plans to use these reports
for congressional hearings, to support workload productivity data, or in performance goals related to the
Social Security Statement, these reports should be as accurate as possible.
Page 8 - The Commissioner

According to SSA staff, 1 cage holds 32 trays and each tray holds 300 envelopes.
These estimates are not based on an actual count or weight of the incoming returned
Statements. During our review, we counted and weighed the number of trays and
envelopes per tray returned to SSA. We determined that there were actually 36 trays of
mail in 1 cage and that each tray contained approximately 450 returned Statement
envelopes. We estimate that the earnings Statements returned to SSA as undeliverable
in CY 2006 could be as high as 7.5 million. This is 2.5 million Statements more than the
SSA estimate of 5 million.

In 2005, the Government Accountability Office (GAO) reported that the Social Security
Statement represented one of the Federal Government’s largest efforts to communicate
directly with workers about their Social Security benefits. SSA established three
Agency goals to emphasize the importance of the Statement: 1) educate the public
about benefits under SSA programs; 2) aid in financial planning; and 3) ensure the
worker’s earning records are complete and accurate.

SSA needs to assure itself of not only the number of Statements being mailed, but also
whether those Statements were received or returned to determine if its goals are being
met. We believe that SSA does not have accurate data to determine the actual volume
of Statements being returned and how much money is being spent on the returned
Statements. Based on our figures, a large population of individuals who could be
relying on the information contained in the Statements is not receiving them. This may
be an indication that SSA is not effectively communicating with the public, and therefore
not meeting its goals.

SSA HAS NOT IMPLEMENTED ON-LINE INTERACTIVE ACCESS FOR THE SOCIAL
SECURITY STATEMENT

Title II of the E-Government Act of 2002, Public Law 107-347, Section 204, states that
agencies should work to maintain and promote an integrated Internet-based system of
providing the public with access to Government information and services.

E-Gov is a cornerstone of the President’s Management Agenda (PMA). SSA has
continued to incorporate this important initiative into its processes through its 2007
Information Resource Management’s Strategic Plan. SSA has received very good
feedback in the area of on-line services. In addition, surveys across Government
indicate that SSA is among the most successful Federal agencies to provide electronic
services to the public. 19

SSA continues to improve its E-Gov/web-based services, and has implemented various
on-line workload and transaction services. However, SSA has not specifically included
the on-line Social Security Statement in its current planning. Other electronic services
have proven convenient in allowing beneficiaries to easily access their individual
information at anytime or change information without visiting or calling an SSA office.

19
     The American Customer Satisfaction Index, Government Satisfaction Scores.
Page 9 - The Commissioner

For example, SSA implemented on-line access to its website for beneficiary claims and
services titled “What You Can Do On-line.” This on-line service provides access via the
Internet to a read-only beneficiary statement as well as provides on-line access to other
types of services. Access is obtained through the use of a password.

According to the Pew Internet & American Life Project 20 report, The rise of the e-citizen:
How people use government agencies’ Web sites (April 2002), the most frequently cited
service Government users would like to have on-line is to access their “Social Security
account information.” Approximately, 77 percent of internet users or 97 million
Americans at some time or other have gone on-line to search for information from
Government agencies or to communicate with them. 21

In 1997, SSA began providing earnings Statement information interactively via the
Internet, allowing users to request and view their earnings and benefit information on-
screen. SSA estimated the cost of processing an interactive Statement at under $.01,
excluding 1-time development costs. The service was discontinued amid security
concerns over the on-line process. In the 10 years since that time, there have been
many changes in technology. This is a good time for SSA to reconsider on-line
interactive access for the Social Security statements. Other Government agencies and
businesses provide public services and personal information through the use of
interactive websites and Personal Identification Numbers (PIN). The following are some
examples:

Office of Personnel Management (OPM), Employee Express (EE) Program

The OPM, EE program is an innovative automated system that Federal employees use
to make changes to their discretionary personal and payroll records electronically. A
PIN and complex web password, along with an SSN or log in identifier, 22 is required to
access the EE System.

Thrift Savings Plan (TSP)

The TSP account information may be accessed through the internet, by telephone or
mail. A web-based password along with a TSP account number enables an employee
to access the TSP account information and perform a number of transactions.
According to TSP, more than 869,000 participants (nearly one quarter of the total
participants) logged onto the TSP Web site to update their passwords in the first
2 weeks following the introduction of a stronger password requirement in May 2007.


20
  The Pew Internet & American Life Project produces reports that explore the impact of the Internet on
families, communities, work and home, daily life, education, health care, and civic and political life.
21
  The great majority of those who use Government Web sites, about 80 percent, accomplished what they
set out to do the last time they went on-line.
22
     Effective September 25, 2007, employees may establish a log in identifier to replace use of their SSN.
Page 10 - The Commissioner

Internal Revenue Service

More and more Americans have chosen e-file which lets them electronically (using a
signature PIN) file a tax return or get an extension of time to file without sending any
paper to the IRS. In 2006, 73 million tax returns were e-filed.

SecurityPlus Federal Credit Union

The SecurityPlus Federal Credit Union offers a wide variety of personal financial
services such as ResponseLine, Automatic Teller Machines and on-line e-Banking
using a PIN to access account information. The e-Banking provides credit union
members with the ability to access on-line banking functions 24 hours a day, 7 days a
week; and obtain real-time account balances, perform transactions, pay bills, and view
current and past account statements on-line.

Alternative Practices

In 2005, GAO reported 23 on SSA’s Public Understanding Measurement System survey
concerning the Social Security Statement. According to GAO, in 2003, 35 percent of
survey respondents stated they did not receive a Statement even though every eligible
worker 25 and older should have been mailed an annual Statement since 1999.
GAO also reported on innovative delivery methods used by other producers of
retirement benefit statements, such as Canada, to send out Statements. The Canadian
government formerly provided Statements every year to all recipients but now
distributes Statements less often 24 and has made the Statement available for viewing at
any time over the Internet. Canadian officials stated that their approach saved money,
since postage is the majority of each Statement’s cost.

CONCLUSIONS AND RECOMMENDATIONS
SSA has a process to provide a Statement to individual wage earners age 25 or older,
who are not in benefit status and for whom an address can be obtained. However,
there are ways for SSA to improve the current process to help ensure that all eligible
individuals have an opportunity to receive a Statement.

In FY 2006, SSA reported that over 145 million Statements were mailed to eligible wage
earners. SSA also reported that the IRS could not provide addresses for 21 million



23
 GAO-05-192, Social Security Statements: Social Security Administration Should Better Evaluate
Whether Workers Understand Their Statements.
24
   Canada distributes Statements through a “Smart Mailing” process. An initial “welcome” Statement is
sent when an individual joins the workforce providing limited information about the pension plan and how
to obtain further information. In about 3-4 years, these individuals receive a Statement containing more
detailed information about their benefits.
Page 11 - The Commissioner

individuals. 25 Combined with SSA’s estimate of 5 million returned Statements, there are
26 million individuals who did not receive their Statements last year. As previously
noted, we believe SSA’s estimate of returned Statements is low. Based on our work,
there could have been as many as 28.5 million individuals who did not receive their
Statements last year. Using the current process, SSA is spending almost $50 million 26
to send out Statements, some of which are not reaching eligible wage earners. In
particular, some low wage earners who may be the most dependent on the information
contained in the Statement are not receiving them.

We recommend SSA:

1. Review alternative methods for delivering Statements to individuals in foreign
   countries and select a process which allows these Statements to be delivered
   successfully. In the meantime, determine whether the Statements should continue
   to be mailed to foreign countries until a more reliable method of delivery is found.

2. Implement an internal control process that would prevent Statements with
   incomplete domestic addresses from being mailed.

3. Perform a cost/benefit analysis for maintaining addresses keyed into the SS-5
   Assistant. These addresses could be used to mail Statements to individuals who
   are currently not receiving them.

4. Review alternative methods of providing a Statement of earnings and benefits to low
   wage earners who are entitled to a Statement, and determine if a different process
   would increase the likelihood of those individuals receiving a Statement.

5. Revise current policies and procedures to more accurately account for the number of
   Statements being returned as undeliverable to SSA.

6. Evaluate allowing access to the Social Security Statement on-line for those
   individuals who would like the opportunity to obtain and view a Statement on-line.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of the Agency’s comments are
included in Appendix F.




25
  SSA does not check for earnings until after the file is returned by IRS. Therefore some of these
individuals may not have earnings and may not be eligible to receive a Statement.
26
     See page 5 – Cost is comprised of postage cost, contract cost, and IRS MOU cost.
Page 12 - The Commissioner

OTHER MATTERS
NUMIDENT RECORDS MAY NOT CONTAIN CURRENT DATE OF DEATH
INFORMATION

During our review, we found 35 returned Statements where the recipients had not
accrued earnings for several years or had substantial gaps in their earning years. In
reviewing these Statements, we found one person had a date of death on the Master
Beneficiary Record (MBR) as of August 5, 2004.

Each week, the Office of Systems selects individuals ages 25-69 from the Numident.
The selections are made by the month-of-birth and SSN range. Some selections are
dropped because the SSNs have a death indicator on the Numident or an “in pay”
indicator on the MBR. The deceased individual from our sample was an auxiliary on
another person’s record. The date of death on the MBR did not appear on the
Numident record. Therefore, a Statement was mailed to the individual even though it
should not have been. SSA should ensure that dates of death for individuals listed as
auxiliaries on another person’s MBR are also posted to the individual’s Numident record
so that Statements are not mailed to deceased persons.




                                                      Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A — Acronyms

APPENDIX B — Scope and Methodology

APPENDIX C — Sampling Methodology

APPENDIX D — IRS Data Systems

APPENDIX E — SSA Flowchart Process to Send SSA File to IRS

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
CADE     Customer Account Data Engine
CY       Calendar Year
EE       Employee Express
FY       Fiscal Year
GAO      Government Accountability Office
GPO      Government Printing Office
IRS      Internal Revenue Service
MBR      Master Beneficiary Record
MEF      Master Earnings File
MF       Master File
MOU      Memorandum of Understanding
MW       Metro West Mail Operations
NCOA     National Change of Address
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
OPM      Office of Personnel Management
PIN      Personal Identification Number
PO       Post Office
POMS     Program Operations Manual System
SSA      Social Security Administration
TAR      Taxpayer Address Request
TIGTA    Treasury Inspector General for Tax Administration
TSP      Thrift Savings Plan
U.S.C.   United States Code
USPS     United States Postal Service
                                                                                Appendix B

Scope and Methodology
Our objective was to review the Social Security Administration’s (SSA) ability to reach
individuals and inform them about their earnings and future benefits using the Social
Security Statement. Specifically, we reviewed two of three wage earner populations1
eligible to receive a Social Security Statement. The two populations included in this
review were wage earners for whom SSA cannot obtain a current address and wage
earners whose Statements were returned to SSA as undeliverable.

To accomplish our objective, we:

    •   Reviewed prior SSA Office of the Inspector General, Government Accountability
        Office, and Treasury Inspector General for Tax Administration (TIGTA) reports,
        as well as Internal Revenue Service (IRS) articles, and United States Postal
        Service manuals and guidance.

    •   Reviewed applicable Federal laws and regulations; the Memorandum of
        Understanding, Interagency Reimbursable Agreement between SSA and IRS;
        SSA’s Program Operations Manual System; and SSA’s Administrative
        Instructions Manual System, Materiel Resources Manual.

    •   Obtained and reviewed the contract to print and send Statements.

    •   Obtained and reviewed the contract to shred and destroy returned Statements.

    •   Interviewed staff at SSA and TIGTA to gain an understanding of the Statement
        and address request process.

    •   Made site visits to the Metro West (MW) Mail Operations Center to: 1) perform a
        walk-through of the process for Social Security Statements returned as
        undelivered; 2) interview staff and review available workload information to obtain
        data regarding the undeliverable Statements; and 3) obtain our sample.

    •   Obtained and analyzed two samples of undeliverable Statements returned to the
        MW Mail Operations. Reviewed these Statements to determine the
        completeness of addresses and contents of envelopes.

    •   Obtained and analyzed a sample of 250 of 329,829 electronic IRS Taxpayer
        Address Request “address unknown” records, and reviewed the IRS tax filing
        instructions for Tax Years 1990-2006.

1
  The third population, wage earners whose Statements were mailed and not returned to SSA, is not
included.


                                                 B-1
    •   Reviewed the Numident file 2 and Master Earnings file (MEF) 3 to determine the
        following for the Statements:

            1.   Date of birth (25 and older),
            2.   SSN obtained, recent activity (2005/2006),
            3.   Amount of wages earned and time period,
            4.   Restrictions,
            5.   Non-wage earners,
            6.   Deceased.

We determined that the data used in this report was sufficiently reliable given our review
objective and intended use of the data. For the “address unknown” records, we
assessed the reliability of the data by verifying the record count provided by SSA. Also,
we verified that there were no duplicate SSNs included in the records, and that all
records indicated they were classified as the SSA Statement category of “unknown
address” provided.

We performed our review at SSA Headquarters from December 2006 through April
2007 in Baltimore, Maryland. The entities audited were the Office of Publications and
Logistics Management in the Office of the Deputy Commissioner for Budget, Finance
and Management; the Office of Central Operations in the Office of the Deputy
Commissioner for Operations; the Office of Earnings, Enumeration and Administrative
Systems in the Office of the Deputy Commissioner for Systems; and the Office of
Communications. We conducted this audit in accordance with generally accepted
government accounting standards.




2
 The Numident includes identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident master file in SSN order. The Numident official name is the Master Files of
Social Security Number (SSN) Holders and SSN Applications (SSA/OSR, 60-0058).
3
 The MEF contains all earnings data reported by employers and self-employed individuals. The data is
used to calculate the Social Security benefits due an individual with an earnings record. The MEF official
name is the Earnings Recording and Self-Employment Income Systems (SSA/OSR 60-0059).


                                                   B-2
                                                                                  Appendix C

Sampling Methodology
The Social Security Administration (SSA) sends an electronic Taxpayer Address
Request (TAR) file to the Internal Revenue Service (IRS) containing the Social Security
number (SSN) and the first four letters of the last name for individuals in the Numident
file. 1 These records are sent to IRS to obtain an address match for those individuals
that will be sent a Statement. IRS returns the TAR file which contains the SSNs and
matched addresses. The file also contains the SSNs that could not be matched as
“address unknown.”

For our sample, we used the 329,829 records returned in the TAR as “address
unknown” for a 1-week time period (December 22 through December 26, 2006). We
sampled 250 of those records and determined that 17 individuals requested a
replacement SSN card in Calendar Year (CY) 2005 or later. Also, eight individuals had
earnings in 2005 and/or 2006. Based on the week reviewed, we estimated that 548,860
of the “address unknown” records in a year had Numident activity and recorded
earnings. 2

During CY 2006, the weekly “address unknown” records ranged from a low of 324,207
to a high of 615,186 records.


                                Sample Results and Projections
        Segment population size (1 week)                                              329,829
        Sample Size                                                                       250
        Number of records with Recent Numident Activity and Earnings                        8
                                       Attribute Projection*
        Point estimate for 52 week period                                              10,555
        Projection lower limit                                                          5,285
        Projection upper limit                                                         18,797
        Estimate for 52 week period                                                   548,860

        * Projections are made at the 90 percent confidence level.




1
 These individuals are selected based on their month of birth. Statements are mailed 3 months prior to
an individual’s birth month.
2
  IRS returned “address unknown” records in the TAR files to SSA for 48 of the 52 weeks in CY 2006.
The average (mean) number of records returned weekly during these 48 weeks was approximately
434,000 and the median was approximately 437,000. The week chosen for our review contained
329,829 records; therefore, we consider our CY 2006 estimate of 548,860 records based upon this week
to be conservative.
                                                                                      Appendix D

IRS Data Systems
The Internal Revenue Service (IRS) provides the Social Security Administration (SSA)
with taxpayer addresses from its data systems i.e., Master File (MF) and the Customer
Account Data Engine (CADE).

Government Accountability Office High-Risk List

In 1995, the IRS business systems were added to the Government Accountability Office
(GAO) high-risk list. According to GAO, IRS relied on an obsolete automated system
for key operational and financial management functions and attempts to modernize the
aging computer systems spanned several decades. IRS has acknowledged that the
most important systems, which maintained all taxpayer records, were developed in the
1960s and 1970s and over the years other systems to perform specific functions were
added to meet evolving tax code changes and to use new technology. However, this
network of systems was never designed or planned, causing current data on taxpayers
to be inconsistent between systems. 1

GAO reported in 2005 and 2007, that despite progress to establish management
controls and acquire infrastructure and applications, the IRS Business Systems
Modernization (BSM) 2 remained a high-risk.

Use of the United States Postal Service National Change of Address System

In 2001, 3 the IRS in conjunction with the United States Postal Service (USPS) agreed to
use the Postal Service’s National Change of Address (NCOA) database to update IRS
taxpayer addresses (IRS intended that NCOA would provide a quicker resolution of
undelivered refunds). 4 The IRS received downloads of the NCOA database weekly and
updated the addresses in its computer systems. Where there was an exact name
match, IRS was to update its file with the taxpayer’s new address. 5


1
    IRS, Business Systems Modernization Program Progress Report; September 1, 2000.
2
    CADE is included in the new BSM applications.
3
    GAO report, GAO-02-144, Tax Administration: Assessment of IRS’ 2001 Tax Filing Season.
4
 Undeliverable mail has long been a problem for the IRS. TIGTA 2001-30-168 report, Improvements in
Recording Third Party Addresses From Tax Returns Will Reduce Undeliverable Business Mail,
September 2001.
5
  The Internal Revenue Code was modified in January 2001, permitting the use of addresses obtained by
the USPS from Change of Address Order forms. However, IRS could not rely on NCOA to update the MF
address of accounts with a third party designation (i.e., return preparer, accountant, relative, fiduciary, or
other data such as trade and partner names) tax address.


                                                     D-1
Before this initiative was implemented, there was disagreement among some IRS
officials over the usefulness of the NCOA database to IRS. The primary concern was
that USPS could not provide statistics regarding the accuracy of the NCOA information
contained in the database. Despite these concerns, IRS never took action to assess
the database’s accuracy before using it for updates. Similarly, once implemented, IRS
never took action to evaluate the initiative’s effectiveness. In FY 2005, IRS did not
contract with the USPS to use NCOA to update taxpayer addresses. A new contract
was not established until FY 2006 and IRS attempted to update addresses as quickly as
possible.

Treasury Inspector General for Tax Administration Findings

In July 2005, the Treasury Inspector General for Tax Administration (TIGTA) reported
on the age and complexity of the MF and the modernization and implementation of
CADE. TIGTA completed its final update on the latest CADE 6 release in August 2006.
At that time, TIGTA reported that 7 percent of tax returns were successfully posted to
CADE while 93 percent of tax returns were still posted to the MF. 7

As reported, taxpayer return information is entered in the IRS computer systems (MF or
CADE) 8 during tax return processing. For both systems, the street address is restricted
to the length allowed in the IRS records. 9 For paper returns, if the street address
exceeds the limit then the IRS employees shorten the address using abbreviations or
other methods without affecting the address accuracy. 10 Before the tax returns are
posted with the new addresses, IRS uses a computer program from the USPS to refine
the addresses. In some instances, the USPS computer program expands the street
address and causes it to exceed the IRS’ space limit. 11 In this situation, the MF is
programmed to use the shorter tax return processing address not the USPS expanded
address.




6
 Final Audit Report—Individual Income Tax Return Information Was Successfully Posted to the Latest
Release of the Customer Account Data Engine.
7
 Tax returns are posted to both systems; however the vast majority is still posted to the MF because of
CADE limitations.
8
 The current CADE release (1.3.2) is still very limited, posting only returns with a filing status of single, no
dependents, a refund or even balance, no mathematical errors on the return and no schedules.
9
 In CADE, when an address exceeded the limit, part of the address was incorrectly cut-off. As a result,
4,100 taxpayer accounts were identified with incorrect addresses. TIGTA determined that 51 of the
4,100 taxpayer accounts had refunds totaling ($27,643) that were returned to IRS as undeliverable by the
USPS. TIGTA auditors brought the CADE address limitations to the attention of IRS and the problem
was corrected.
10
     Electronic forms have a limited space to enter a street address.
11
     For example, the abbreviations “lndg” was expanded to “landing.”


                                                      D-2
TIGTA also provided information from an IRS programming contractor concerning how
information is stored in the IRS, MF. According to the contractor, the IRS is currently
keeping all entity (name, address, etc.) information on the active portion of the IRS MF.
Previously, 12 the IRS removed taxpayer entity information from the active portion of the
IRS MF for taxpayers who were no longer filing tax returns and only updating
information in the active portion of the IRS MF. If the taxpayer's information was moved
to the inactive portion of the IRS MF due to not filing tax returns for a number of years,
and the taxpayer subsequently files again, or requested their information to be updated,
then the taxpayer's inactive information will be moved back to active status on the IRS
MF and updated.

Current Status

IRS is in the process of modernizing its systems to better manage taxpayer accounts.
Presently, the age and complexity of the MF causes delays and inaccuracies in
providing service to taxpayers. Although CADE will eventually replace the MF, only
7 percent of tax returns were posted to CADE in 2006.

Currently, there are two name fields in the IRS database. For the taxpayers who have
an address in a foreign country, IRS uses its second name field to store the foreign
street address. 13 The IRS street address field is used to store the foreign city and/or
province information. The IRS uses its city/state/zip code section to store the foreign
country name. Because IRS does not consider this second name field “address” data, it
will not provide the information to SSA under its disclosure policies. 14

From our research and the information provided, SSA is not receiving a complete
foreign mailing address that is acceptable under the USPS International Mailing
process. 15 Limitations within the IRS data may prevent SSA from receiving an accurate
foreign address.




12
     IRS began keeping all entity information in the active portion of the IRS MF as of January 2006.
13
  TIGTA has not conducted audit work on how IRS stores foreign addresses. However, TIGTA auditors
confirmed the information on how IRS stores the foreign addresses in its database.
14
     26 U.S.C. § 6001 et seq.
15
  SSA’s contractor mailed 652,608 Statements to foreign countries in FY 2006 at an approximate cost of
$411,000.


                                                      D-3
                                                Appendix E

SSA Flowchart Process to Send SSA File to IRS




                              E-1
Flowchart Narrative - Process to Send SSA
File to IRS
The Social Security Administration Initiated Statement Process:
 SSA obtains the Social Security number (SSN), name, date of birth, and
   death information from the Numident file and creates a Taxpayer Address
   Request (TAR) file.
 Weekly, individuals’ records are selected by age range and if there is no
   death record.
 Records are eliminated from the file if individuals have received a Statement
   within the past year.
 Records are eliminated from the file if individuals are receiving benefits or
   have a benefit claim pending.
 SSA obtains addresses for individuals living in U.S. Territories from taxpayer
   files in those locations.
 The TAR file is sent to the Internal Revenue Service (IRS).
 IRS provides taxpayer addresses and sends the TAR file back to SSA.

The On Request Statement Process:
 An individual requests a Statement by completing the form SSA-7004, either
   manually or on-line.
 Manual forms are keyed in at the Wilkes-Barre Data Operations Center and
   combined with the TAR file for printing and mailing.

Daily Operation for Printing and Mailing Statements:
 Records with multiple SSNs are combined and re-checked to screen out
   anyone who just began receiving benefits or with a pending claim.
 Earnings records are obtained and examined.
 Earnings records problems are resolved and estimates of future benefits are
   calculated.
 A history record is sent to the Statement History file and the file is sent to the
   print and mail contractor.
 SSA’s contractor prints and mails Statements to the public.




                                         E-2
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      December 28, 2007                                                     Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/ Jim Winn for
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Ability to Reach Individuals Using the Social Security Statement” (A-15-07-17095)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S ABILITY TO REACH
INDIVIDUALS USING THE SOCIAL SECURITY STATEMENT” (A-15-07-17095)

Thank you for the opportunity to review and provide comments on this draft report. While some
of the reasons individuals do not receive a Social Security Statement are beyond our control, our
goal is in line with congressional intent that all eligible individuals are entitled to receive an
annual Social Security Statement.

Our comments on the draft recommendations are as follows.

Recommendation 1

Review alternative methods for delivering Statements to individuals in foreign countries and
select a process which allows these Statements to be delivered successfully. In the meantime,
determine whether the Statements should continue to be mailed to foreign countries until a more
reliable method of delivery is found.

Comment

We agree. We have determined that Statements without complete addresses should not be
mailed to foreign countries. Within the next six months, we will investigate alternative methods.

Recommendation 2

Implement an internal control process that would prevent Statements with incomplete domestic
addresses from being mailed.

Comment

We agree. Within the next six months we will pursue assistance from the Internal Revenue
Service to prevent Statements with incomplete domestic addresses from being mailed.

Recommendation 3

Perform a cost/benefit analysis for maintaining addresses keyed into the SS-5 Assistant. These
addresses could be used to mail Statements to individuals who are currently not receiving them.

Comment

We agree. We have determined that the SS-5 Assistant system architecture does not maintain a
database accessible by other applications to utilize the address information. To maintain
addresses in the SS-5 assistant would require major system development efforts in the
enumeration area for which we do not have the resources to expend at this time.




                                               F-2
Recommendation 4

Review alternative methods of providing a Statement of earnings and benefits to low wage
earners who are entitled to a Statement, and determine if a different process would increase the
likelihood of those individuals receiving a Statement.

Comment

We agree. During fiscal year 2008, we plan to conduct an outreach campaign to inform the
public and work with field offices to disseminate the information to groups and organizations
that deal with low-income wage earners. Our message would encourage this audience to request
their Statements. We would later evaluate the campaign to determine its success and decide if
there are other ways to increase the number of low-wage earners obtaining a Statement.

Recommendation 5

Revise current policies and procedures to more accurately account for the number of Statements
being returned as undeliverable to SSA.

Comment

We agree. To more accurately account for the number of undeliverable Statements being
returned to us, we will count each full cage as 36 trays, each full tray will be counted as
containing 450 Statements. Any partial cage will be manually counted to determine the number
of full trays and each partial tray will be manually counted to determine the number of returned
Statements. This process will prove to be a more efficient way of providing the total number of
undeliverable Statements being returned to us. We issued an Operations Bulletin to the staff on
November 30, 2007 to inform them of the revised instructions for accounting for undeliverable
Statements.

Recommendation 6

Evaluate allowing access to the Social Security Statement on-line for those individuals who
would like the opportunity to obtain and view a Statement on-line.

Comment

We agree. We continue to explore authentication models that would allow us to disclose the
earnings records online with assurances that the information is being received by the proper
individual. Meanwhile, we are taking steps that would allow individuals to request and view an
online estimate of their retirement benefit. The Retirement Estimator (RE) tool addresses two of
our three goals emphasizing the importance of the Statement: 1) educate the public about
benefits under our programs; and 2) aid in financial planning. The RE, which utilizes the same




                                               F-3
software that generates the Statement, provides individuals with retirement estimates and allows
them to conduct multiple “What If” scenarios by modifying their stop work age and/or future
earnings amounts. The RE was built with insight gathered from the general public, financial
planners and human resource professionals via focus groups, usability tests and surveys. The RE
is expected to be released to the public in calendar year 2008.




                                              F-4
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

   Kristen Schnatterly, Audit Manager (410) 965-0433

Acknowledgments

In addition to those named above:

   Judith Kammer, Senior Auditor

   Rick Wilson, Senior Auditor

   Sig Wisowaty, Senior Auditor

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-15-07-17095.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
